Final Memorandum on the Audit of the Reporting of NASA’s National Security Systems
(IG-09-024, August 28, 2009)

OA initiated this audit because of an issue identified during our audit of NASA’s compliance
with fiscal year (FY) 2008 requirements of the Federal Information Security Management Act
(FISMA). Each year, the Office of Management and Budget (OMB) provides a FISMA
reporting template for agencies to use in their annual FISMA reporting. The issue we identified
related to the Agency’s including information on its national security systems in the responses
provided to OMB.

We found that NASA did not comply with FISMA requirements for the reporting of national
security systems for FYs 2007 and 2008 because NASA had not clearly assigned this
responsibility to a specific NASA office. Further, NASA had not formally designated an entity
with appropriate resources to complete the annual independent evaluations of its national
security systems required by FISMA. We notified the Agency about this issue in February 2009,
and NASA immediately assigned the responsibility to the Office of the Chief Information
Officer (OCIO). In response to our draft report, NASA assigned the Office of Protective
Services (OPS) to work with the OCIO to gather and compile the required information to report
to OMB and stated that a formal agreement with an independent entity was being developed.
We consider management’s proposed actions to be responsive and will close the related
recommendation after verifying that the Agency has established a formal agreement with an
entity with the appropriate resources to conduct the annual independent evaluation of NASA’s
national security systems.

We also reviewed the certification and accreditation (C&A) program for NASA’s national
security systems and determined that it generally provided adequate information security
protection. However, we found some systems that lacked appropriate C&A documentation,
which has been addressed. All of the report’s recommendations are resolved or closed. As a
result, NASA has reasonable assurance that its national security systems comply with national-
level security requirements and maintain an appropriate security posture against current threat
assessments at an acceptable risk level.

The report contains NASA Information Technology/Internal Systems Data that is not routinely
released under the Freedom of Information Act (FOIA). To submit a FOIA request, see the
online guide.
